Office of Inspector General



October 12, 2012

MEMORANDUM

TO:                  USAID/Afghanistan Mission Director, S. Ken Yamashita

FROM:                Supervisory Auditor, Nathan Lokos /s/

SUBJECT:             USAID/Afghanistan’s Performance Based Governors’ Fund
                     (No. F-306-13-001-S)

This memorandum is being reissued on February 12, 2013 to incorporate management’s
comments.

As previously discussed with representatives of the mission’s democracy and governance team,
OIG/Afghanistan will not complete its audit of the Performance Based Governors’ Fund (PBGF).
However, in the course of planning the audit, the assigned audit team identified eight concerns
related to the program that merit your attention and follow-up.

To assist you, we have grouped the concerns into three categories below. Additionally, to
improve the performance of the program, we are providing suggested actions to address each
concern. Please note that the actions proposed are not formal audit recommendations. Your
responses are summarized on page 5 and are included in full starting on page 7.

Program Performance Management

1. Performance targets and baselines omitted. Performance indicator targets and baselines
   are essential components of a complete performance monitoring plan. Target and baseline
   values are critical both for understanding the level of performance before the implementation
   of USAID-supported projects and for determining whether the planned result was achieved
   within a specified timeframe. However, the PBGF’s plan contains no baseline values and
   only one target value for its 103 performance indicators. Only one of USAID/Afghanistan’s
   four strategic objective indicators had a target; none of the 16 PBGF expected results
   indicators had associated targets; and none of the 83 associated indicators and
   subindicators in the program’s performance evaluation scoring matrix had targets. The one




U.S. Agency for International Development
Office of Inspector General Country Office Afghanistan
U.S. Embassy Kabul, Afghanistan
www.usaid.gov/oig
                                                    -2-


   target included is to provide every Afghan province with “USG [U.S. Government]
   Assistance.” The absence of performance baselines and targets precludes a meaningful
   assessment of program performance and success.

           Suggested action. The Asia Foundation and the democracy and governance team
           should identify Performance Based Governors’ Fund’s performance targets and
           baselines for all the indicators to be included in the program’s revised performance
           monitoring plan.

2. Performance indicators too numerous to be useful. A performance management plan
   should have as many indicators as are necessary and cost-effective for results management
   and reporting purposes. In most cases, two or three indicators per result should be
   sufficient to assess performance. Although they are not all labeled as “performance
   indicators,” the PBGF’s performance management plan contains more than
   100 performance indicators, many of which require the collection of data for each of the 34
   Afghan provinces. This appears to be an excessive and unwieldy amount of data to collect.

           Suggested action. The Asia Foundation and the democracy and governance team
           should reduce the number of performance indicators for the Performance Based
           Governors’ Fund to a number that is necessary, cost-effective, and sufficient to
           assess performance.

3. Performance management plan not updated. Performance monitoring plans should be
   updated regularly, and such updates are usually performed annually. However, the PBGF’s
   plan has not been updated to reflect the reduction in the number of performance indicators
   used or the modifications made to the indicators. For example, during the pilot phase of the
   program, the number of performance indicators in the performance evaluation scoring matrix
   was reduced from 30 to 20. Additionally, the mission’s 2011 portfolio review prompted
   significant changes to strategic objective indicators. The plan itself states that changes to
   the program’s indicators would likely occur, but the plan was not modified. This
   circumstance raises questions about what role the plan served and whether it was used as a
   performance management tool.

           Suggested action. In collaboration with the Asia Foundation, the democracy and
           governance team should update the performance management plan.

4. Intended results not clear or universally understood. A principal step in performance
   management is establishing a performance management framework, which identifies the
   hierarchy of results that a program is intended to achieve. However, program documents
   and assertions made by key program officials do not consistently articulate the intended
   results of the PBGF. For example, the cooperative agreement asserts that the program will
   provide provincial governors with assistance “so that they are better able to meet community
   outreach needs, enhance their relationships with citizens, and improve their overall
   management capacity.” A key program official noted, “The main objective of PBGF is to
   better position the sub-national level to access the central level funding.” An implementing
   partner official wrote that the program’s goal is to strengthen Afghan sub-national
   governance by providing capacity building and f inancial support to “Provincial Governors’
   Offices and Provincial Councils, as well as . . . the Independent Directorate of Local
   Governance.” These and other examples prompted concern and questions about the focus
                                                   -3-


   and desired results of the program, which the audit team was not able to resolve. If the
   program’s intended results are not clear, program success is unlikely.

          Suggested action. The Asia Foundation and the democracy and governance team
          should review, revise and clarify (if necessary), and communicate the intended
          results of the Performance Based Governors’ Fund so that all parties involved in the
          program have a clear and consistent understanding of them.

Financial Matters

5. Charges not for actual costs. Costs charged to an award should equal costs incurred.
   During the pilot phase of the program, the Asia Foundation reported that it had disbursed
   $9,188,518 to provincial governors, 90 percent of the estimated disbursement amount.
   However, an Asia Foundation financial report prepared and submitted to USAID/Afghanistan
   revealed that the foundation charged the entire estimated cost of the program without taking
   into account the undisbursed funds of $1,020,000.            This disparity suggests that
   disbursement costs charged may be for budgeted amounts instead of actual costs and
   therefore would be unallowed.

          Suggested action. USAID/Afghanistan should verify that amounts charged under the
          Performance Based Governors’ Fund for disbursements to Afghan provincial
          governors during the pilot phase reflect actual costs.

6. Spending mainly for vehicles and equipment. According to PBGF’s cooperative
   agreement, the purpose of the program is to provide interim assistance to governors so they
   are better able to meet operational and community outreach needs, enhance their
   relationships with citizens, and improve their overall management capacity. Consistent with
   the program’s purpose, one might expect a balanced level of spending on operational
   resources, community outreach, and capacity building. However, spending on vehicles and
   equipment reached an average of 51 percent of total program funds disbursed; spending on
   community outreach averaged 18 percent; and spending on capacity building averaged
   5 percent of total spending. Although expenditures in one category may advance goals in
   other categories—for example, equipment may support community outreach—spending on
   vehicles seems excessive in relation to spending for improving management capacity and
   community outreach.

          Suggested action. USAID/Afghanistan should more closely review the nature of
          expenditures to ensure that program purposes are achieved.

General Award Management

7. Database reporting not done. PBGF’s cooperative agreement, Section A.10.1, “Database
   Reporting,” requires the Asia Foundation to provide program information quarterly to
   USAID/Afghanistan’s management information system, Afghan Info. However, at the time
   of our work, the only data reported in the database on PBGF was for the first quarter of
   fiscal year 2011. The purpose of the database is to track and monitor development projects
   and maintain coordination among USAID/Afghanistan, USAID/Washington, Congress, the
   International Security Assistance Force, implementing partners, the Government of
   Afghanistan, and other donors. Not entering required information in the database defeats
   this purpose.
                                                    -4-



           Suggested action. USAID/Afghanistan should resolve issues preventing the Asia
           Foundation from updating the Afghan Info system with Performance Based
           Governors’ Fund data and prompt the input of data to bring the system up-to-date.

8. Performance management plan not approved. PBGF’s cooperative agreement,
   Section A.9, “Substantial involvement,” asserts that it is the responsibility of the agreement
   officer’s representative to review and provide approval of the monitoring and evaluation
   plan. When asked to prove that the plan had been approved, the implementer provided
   evidence that a previous agreement officer’s representative had reviewed and edited the
   plan, but neither the implementer nor USAID/Afghanistan staff provided documentation that
   the plan had been approved. Given the problems outlined above with the performance
   management plan, mission management missed an opportunity to improve management of
   the program.

           Suggested action. The agreement officer’s representative should review and approve
           the performance management plan.

Please contact me if you have any questions about the content of this memorandum. Thank
you for the excellent support provided to my team.
                                                  -5-


SUMMARY OF MANAGEMENT COMMENTS

In response to our memorandum, USAID/Afghanistan agreed with suggested actions 1, 3, 4, 6,
7 and 8. The mission disagreed with suggested actions 2 and 5. Mission comments are
summarized below.

Program Performance Management

      Suggested action 1. The mission agreed to include baselines and targets for its PBGF
      Phase II performance management plan with an expected completion date of June 6,
      2012.

      Suggested action 2. The mission did not agree that it should reduce the number of
      performance indicators for the Performance Based Governors’ Fund, claiming that the
      103 indicators were not part of its performance management plan and that this plan only
      listed 20. Moreover, the mission stated that for PBGF Phase II, these 20 are currently
      being revised and updated. The mission did not provide a target date for completion.

      We do not agree with the mission’s contention that the performance management plan
      only contains 20 performance indicators. The 20 indicators referred to by the mission are
      characterized in the performance management plan as “key USAID indicators” and
      “PBGF expected results and indicators”. However, the performance management plan
      also notes that PBGF has developed a performance scoring system, including
      indicators, to measure gubernatorial performance. We included these in our count of 103
      performance indicators.

      Suggested action 3. The mission agreed and is currently working with The Asia
      Foundation to develop a PBGF Phase II performance management plan with an
      expected completion date of June 6, 2012.

      Suggested action 4. The mission agreed and is working with The Asia Foundation to
      develop a clear hierarchy of overarching goals with supporting results to be included in
      the updated Phase II performance management plan with an expected completion date
      of June 6, 2012.

Financial Matters

      Suggested action 5. The mission disagreed, claiming that it was satisfied that costs
      charged represented actual costs. Nevertheless, the mission included an audit of the
      PBGF award in its FY 2012 Audit Management Plan, with an expected completion date
      to be determined pending audit firm availability.

      Suggested action 6. The mission agreed, noting that it had already implemented
      mechanisms resulting in more funds allocated to community outreach needs, and that
      vehicle expenditures would no longer be allowable costs under PBGF II. They also
      stated that no further action would be necessary to address the suggestion.

General Award Management

      Suggested action 7. The mission agreed, claiming that since the Afghan Information
      system is now web-based, accessibility problems have been solved. They also stated
                                       -6-


that past indicator data was being uploaded and that no further action would be
necessary to address the suggestion.

Suggested action 8. The mission agreed, and stated that they were updating the
performance management plan and approvals would be documented. The expected
completion date was June 6, 2012.
                                              -7-


MANAGEMENT COMMENTS

UNCLASSIFIED                                        May 21, 2012
INFORMATION MEMORANDUM

TO:                George Buzby, Assistant Director/Auditor,
                   Inspections and Evaluations Division,
                   Office of Audit, OIG

THROUGH:           David Thompson, Acting Deputy Mission Director /s/

FROM:              Elizabeth Ramirez, Senior Governance Advisor, ODG

SUBJECT:           Audit of USAID/Afghanistan’s Performance Based Governor’s
                   Fund’s (PBGF) Phase I Implementation (November 2009-
                   October 2010)

REFERENCE:         OIG Task No. FF100312

ODG appreciates OIG’s efforts in initiating the PBGF audit and informing us
accordingly of its preliminary observations. ODG has reviewed OIG’s draft
memorandum which was shared with ODG on May 18, 2012, and has prepared the
below comments for consideration by OIG as it finalizes its summary
memorandum.
Although USAID/Afghanistan will not be required to respond formally to OIG’s
memo, ODG deems it important to share its comments on the issues identified and
inform OIG of its planned actions or actions already taken to address OIG’s
suggestions.
Issues Identified and Suggested Actions
Program Performance Management:
      PBGF’s Performance Management Plan (PMP) did not include baselines or
      targets.

      OIG’s Suggested Action: The Asia Foundation and the Assistance
      Objective Team should identify Performance Based Governors’ Fund’s
      performance targets and baselines for all of the indicators, to be included in
      the program’s revised performance management plan.
                                      -8-



ODG Response: The PMP for PBGF’s first phase (page 8, section 4.3) states
“In the context of PBGF Program, a specific baseline assessment linked with
the objective is not very much relevant because this is a performance based
fund. Until funds are utilized, the performance in the contexts of the
program cannot be measured very well.” As such, the baseline figures were
not established.

Action Taken: The AOR is working with The Asia Foundation to finalize
the PBGF Phase II PMP, which will include appropriate baselines and
targets.

Target completion date: 06/06/2012

PBGF’s PMP had too many indicators.

OIG’s Suggested Action: The Asia Foundation and the Assistance
Objective Team should reduce the number of performance indicators used
for Performance Based Governors’ Fund to a number that is necessary, cost
effective, and sufficient to assess performance for program results.

ODG Response: The PMP for PBGF (tables 4.1a and 4.1b on pages 12-13)
lists 20 performance indicators. These are being revised and updated for
PBGF II. The 103 indicators mentioned in the OIG report is not part of the
program’s PMP, but rather part of the program evaluation matrix used to
rank Provincial Governor’s Offices (PGOs). Originally, that matrix had 76
indicators, and this was simplified to 20 indicators in January 2011.

Based on the above clarification, ODG deems that the issue should not be
included in the memo.

PBGF’s PMP had not been updated.

OIG’s Suggested Action: In collaboration with The Asia Foundation, the
Assistance Objective Team should update the Performance Management
Plan.

ODG Response: A draft PMP was included in the PBGF Phase II
application, which was submitted in October 2011; however, it was not
finalized due to uncertainties surrounding DFID’s cost share. While DFID
                                             -9-


     still hasn’t determined the amount of its cost share, as of April 2012 it is
     certain that PBGF II will no longer support a Provincial Council fund or
     Financial Management Systems pilot.

     Action Taken: The AOR is currently working with The Asia Foundation to
     develop a new PMP that reflects the Mission’s updated 2011 democracy and
     governance indicators.

     Target Completion Date: 06/06/2012

     PBGF program results should be clear and universally understood.

     OIG’s Suggested Action: The Asia Foundation and the Assistance
     Objective Team should review, revise and clarify (if necessary), and
     communicate the intended results of the Performance Based Governors’
     Fund, so that all parties involved in the program have a clear and consistent
     understanding of them.

     ODG Response: ODG is working with The Asia Foundation to develop a
     clear hierarchy of overarching goals with supporting results. These will be
     clearly laid out in the updated PMP for PBGF II.

     Target Completion Date: 06/06/2012


Financial Management:
     Costs charged may represent budgeted amounts, not actual costs.

     OIG’s Suggested Action: USAID/Afghanistan should verify amounts
     charged under the Performance Based Governors’ Fund Program for
     disbursements to Afghan provincial governors during the pilot phase reflect
     actual costs.

     ODG Response: The PBGF cooperative agreement was modified several
     times to revise and re-align the program budget, especially with reference to
     Modification Nos. 2, 4, and 7 where budgeted costs were re-allocated
     between budget lines. USAID consulted extensively with The Asia
     Foundation to ensure funds were allocated so as to prevent the program from
     shutting down during the prolonged period in between PBGF’s first and
                                           -10-


     second phases. USAID also added funds to prevent the project from closing.
     In particular, Modification No. 4 realigned the budget based on the changing
     operational and funding circumstances that were impacting quite heavily on
     the program. As such, ODG is satisfied that the costs charged indeed
     represent actual costs.

     Planned Action: In line with the Mission’s A3 audit program, an audit of
     the PBGF award is already included in the FY 2012 Audit Management
     Plan.

     Target Completion Date: TBD as audit firms become available

     Most of Provincial Governor Offices’ (PGO) spending in PBGF’s first
     phase was on vehicles and equipment.

     OIG’s Suggested Action: USAID/Afghanistan should more closely review
     the nature of expenditures to ensure that program purposes are achieved.

     ODG Response: PBGF seeks to develop sub-national financial management
     capacity, devolve budgeting planning and execution responsibilities to
     PGOs. As such, the Governor and his/her office have authority over what is
     included within their monthly PBGF budget, provided that it falls within the
     approved cost categories.

     Actions Taken: PBGF has instituted evaluation mechanisms such as the
     ranking mechanism, to reconcile the often conflicting priorities among
     PGOs and donors and reward emphasis on community outreach and capacity
     building. The program has many examples of PGOs responding positively
     to this incentive structure. It should be noted that , in PBGF’s second phase,
     the program has noted a significant reduction in the proportion of funds
     spent on equipment and an increase in funds allocated for community
     outreach. In addition, vehicle expenditures are no longer allowable costs
     under PBGF II.

     ODG deems that the above actions adequately address the issue and that no
     further action is necessary.

General Award Management:
     Database reporting was not performed.
                                           -11-


      OIG’s Suggested Action: Resolve issues preventing The Asia Foundation
      from updating the Afghan Info system with Performance Governors’ Fund
      data and prompt the input of data to bring the system up to date.

      ODG Response: Since Afghan Info is now web-based, the issue of
      accessibility has been resolved. The AOR is currently working with The
      Asia Foundation to ensure that past indicator data is uploaded to Afghan
      Info and data is kept up to date. ODG believes that no further action is
      necessary.

      PMP was not approved.
      OIG’s Suggested Action: The Agreement Officer’s Representative should
      review and approve the performance management plan.

      ODG Response: The AOR is working with The Asia Foundation to update
      the PMP and will clearly document future approvals.
      Target Completion Date: 06/06/2012

cc:   Robbin Burkhart, Controller
      Mike Ashkouri, Deputy Director, OAA
      Chris Egaas, Contracts Mgt. Team, OAA
      Tanya Nunn, RLO
      Tom Cornell, OPPD
      Nate Lokos, Director, OIG Afghanistan
